HHS/OIG-Audit--"Review of Escheated Warrants, Iowa Department of Revenue and Finance, (A-07-99-01042)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Escheated Warrants, Iowa Department of Revenue and Finance,"
(A-07-99-01042)
January 31, 2000
Complete Text of Report is available in PDF format
(268 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our limited review of escheated warrants
(uncashed and unclaimed checks) processed by the Iowa Department of Revenue
and Finance (Department), Des Moines, Iowa. Our objective was to assess the
effectiveness and efficiency of the Department's procedures for identifying,
crediting, and reporting the Federal share of escheated warrants processed during
the 12-month period ended June 30, 1998. Based on our review, we conclude that
the Department's procedures for processing escheated warrants were adequate.